<html>
<title> - 21<SUP>st</SUP> CENTURY SBA: AN ANALYSIS OF SBA'S TECHNOLOGY SYSTEMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


               21st CENTURY SBA: AN ANALYSIS OF SBA'S
                           TECHNOLOGY SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON INVESTIGATIONS, 
                       OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JULY 22, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-089
             Available via the GPO Website: www.govinfo.gov
                          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-300                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------            
         
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Judy Chu....................................................     1
Hon. Ross Spano..................................................     3

                                WITNESS

Mr. Guy Cavallo, Deputy Chief Information Officer, U.S. Small 
  Business Administration, Washington, DC........................     5

                                APPENDIX

Prepared Statement:
    Mr. Guy Cavallo, Deputy Chief Information Officer, U.S. Small 
      Business Administration, Washington, DC....................    18
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
  21<SUP>st</SUP> CENTURY SBA: AN ANALYSIS OF SBA'S TECHNOLOGY SYSTEMS

                              ----------                              


                        WEDNESDAY, JULY 22, 2020

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Investigations, Oversight and 
                                       Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:02 p.m., in 
Room 2360, Rayburn House Office Building, Hon. Judy Chu 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Chu, Evans, Craig, Chabot, 
Burchett, and Spano.
    Chairwoman CHU. I call the meeting to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I want to thank everyone, especially our witnesses, for 
joining us today for our Committee's hybrid hearing.
    I want to make sure to list some important requirements. 
Let me begin by saying that standing House and Committee rules 
and practice will continue to apply during hybrid proceedings. 
All members are reminded that they are expected to adhere to 
the standing rules, including decorum.
    During the covered period as designated by the Speaker, the 
Committee will operate in accordance with House Resolution 965 
and the subsequent guidance from the Rules Committee in a 
manner that respects the rights of all members to participate.
    House regulations require members to be visible through a 
video connection throughout the proceedings, so please keep 
your cameras on. Also, if you have to participate in another 
proceeding, please exit this one and log in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party, and I 
will recognize that member at the next appropriate time slot, 
provided they return to the proceedings.
    And, finally, remember to remain muted until you are 
recognized to minimize background noise. In accordance with the 
rules established under House Resolution 965, staff have been 
advised to mute participants only in the event there is 
inadvertent background noise.
    For those members physically present in the committee room 
today, we will also be following the health and safety 
guidelines issued by the Attending Physician, which includes 
social distancing and especially the use of masks. I urge 
members and staff to wear masks at all times while in the 
hearing room, and thank you in advance for your commitment to a 
safe environment here today.
    I am pleased to be holding this important hearing today to 
learn more about the Small Business Administration's 
information technology systems, IT modernization efforts, and 
cybersecurity strategy. SBA has counted on its technology 
systems to implement the programs to help entrepreneurs launch 
and grow their small businesses, and millions of small 
businesses have relied on them over the past few months to 
access the assistance they need to survive the coronavirus 
pandemic.
    I would like to thank Mr. Guy Cavallo, the Deputy Chief 
Information Officer for SBA, for being here today to discuss 
SBA's efforts to modernize its systems and address some of the 
technical issues that have hampered the rollout of economic 
relief programs.
    Ineffective IT systems have been a persistent problem at 
SBA. While significant progress has been made to upgrade the 
system in recent years, the magnitude of the pandemic has 
demonstrated the need for more modern systems that are safer, 
faster, and more efficient at delivering services to America's 
small businesses.
    Six months after the first confirmed case in the U.S., our 
country remains in the grips of the coronavirus pandemic. Small 
businesses have relied on Congress and SBA to help them survive 
the necessary State-ordered public health lockdowns, 
restrictions and operating capacity, and significant revenue 
losses resulting from our fight to contain this virus.
    This crisis has made it necessary for unprecedented numbers 
of small businesses to rely on your agency's technology to 
access loan applications, connect to their local resource 
partners, find translated resources, and answer their urgent 
questions in a timely manner. However, several technical issues 
have arisen during the pandemic, making it both frustrating and 
difficult for small businesses to receive the relief they need 
in a timely manner.
    This Committee acknowledges the toll that this 
unprecedented level of activity has taken on SBA systems, and 
we commend you and your staff for working around the clock to 
fix several of the issues. The coronavirus has placed a 
historic burden on SBA, and we in Congress must ensure that you 
have the resources you need to assist the American people. But 
many of these system weaknesses have been known for years and 
should have been addressed and modernized long before this 
pandemic. In fact, some of the issues were brought to SBA's 
attention as early as 2014 by the Government Accountability 
Office and, in fact, there was a 2011 report from the GAO 
before that.
    According to the Committee on Oversight and Reform's IT 
scorecard, SBA has made improvements to its IT infrastructure 
overall, but is still scoring a D on cybersecurity. This is 
particularly concerning given the cybersecurity breach that 
occurred with the EIDL application.
    In late March, SBA detected a vulnerability in the EIDL 
application, which allowed applicants' personally identifiable 
information to be viewed by other applicants. Even more 
troubling, the individuals that were potentially affected were 
not notified until mid-April, nearly 20 days after the data 
breach, and the notification was simply a paper letter.
    The Committee heard from several recipients who were 
inquiring whether it was a scam or a verifiable document. At 
the time, SBA had failed to make any public announcement about 
the breach, again, showing a lack of transparency that had been 
a consistent concern for the committee throughout the COVID-19 
pandemic. Affected businesses lost their place in the queue, 
were forced to reapply, and then were shut out of the program 
when SBA inexplicably limited applications to only agricultural 
businesses.
    We recognize that your office was not directly involved in 
those decisions, but they demonstrate the tremendous downstream 
impacts faced by small businesses that were affected by the 
initial IT systems failure.
    Other problems that arose during the pandemic were related 
to SBA's loan processing system, E-Tran, which is a legacy 
system that SBA had planned to replace in an effort to 
modernize its IT infrastructure. The issues concerning E-Tran 
are not new. In 2014, the GAO reported that SBA may be 
unprepared for a large volume of applications to be submitted 
quickly following future disasters which could result in delays 
in loan funds for disaster victims. And in this report, SBA 
actually stated that E-Tran would be replaced by 2015. However, 
in 2020, SBA is still relying on the same system.
    Shortly after the launch of the Paycheck Protection Program 
portal, the system was inundated by applicants, causing it to 
go offline for 4 hours. The system then crashed again a second 
time when the PPP portal reopened in late April.
    While we recognize that SBA quickly increased bandwidth to 
increase the system--to address the system crash both times, 
the agency cannot rely on a system that is incapable of meeting 
high demand in a crisis.
    The Committee plans to explore what steps must be taken to 
improve SBA's IT systems moving forward in order to prevent 
these issues from reoccurring should Congress reauthorize or 
authorize further small business assistance as we continue to 
fight the virus or if a natural disaster should strike and 
compound the stress on SBA's systems. It is imperative that 
SBA's technology systems be modernized to meet the demands of 
the 21st century.
    With that, I look forward to hearing from Mr. Cavallo on 
the changes SBA plans to implement to its technology systems 
and what he needs from Congress in order to address these 
technical failures to ensure the SBA IT infrastructure is fully 
prepared in the future.
    I now yield to the Ranking Member, Mr. Ross Spano, for his 
opening statement.
    Mr. SPANO. Thank you, Madam Chairwoman.
    While all of the oversight hearings we hold in this 
Committee are important, examining the state of the SBA's 
information technology is truly one of the most vital. We live 
in an era dominated by modern technology and the internet, so 
there is little else that has changed the way we live our lives 
so dramatically.
    This pandemic has underscored our reliance on modern 
technology to do almost anything and everything, from running a 
successful business and allowing employees to telework, to 
socializing while maintaining social distancing. Technology has 
been and will continue to be critical in allowing the private 
sector and public government to respond to and recover from 
this pandemic. The SBA is no exception.
    As technology continues to improve, implementing innovative 
technological solutions to streamline manual processes or 
upgrade legacy systems are actions that any responsible Federal 
agency should consider. Once these new technologies are 
deployed, it is imperative that the agency ensure they are 
secure, operational, and meet mission objectives.
    For instance, the SBA's decision to move from mail-in, 
paper-based application processes to online loan and 
contracting applications certainly has advantages for both the 
agency and the participant. Unfortunately, it also comes with a 
host of other challenges, for instance; vulnerability to 
computer bugs, data breaches, and cyber attacks.
    As has been widely reported in the news, the technological 
system supporting the Paycheck Protection Program suffered from 
a number of these mishaps. Reports regarding the Economic 
Injury Disaster Loan Program have not fared well. While the 
EIDL advanced program intended to provide emergency grants to 
small businesses within 3 days of their application being 
filed, the SBA took nearly 6 weeks to approve less than 1 
percent of the total application backlog.
    Even though I appreciate the SBA's recent efforts to meet 
the surging demand, reports show that little more than a third 
of the amount Congress authorized to support the EIDL program 
has been approved. Adding insult to injury, a glitch in the 
EIDL portal led to nearly 8,000 EIDL applicants' personal 
information being compromised, including Social Security 
numbers, birth dates, and addresses.
    I cannot overstate just how dire the situation is for small 
businesses everywhere in this country, including in my own 
district. They need these funds now. And if technology is the 
solution or the problem, we need to take appropriate action 
immediately.
    Addressing the issues with SBA's loan programs is not the 
only reason why I am interested in hearing from you today, Mr. 
Cavallo. As the SBA continues to invest in new technologies, it 
is imperative that the agency ensures that the investment was 
worth it, that the outcome achieves the intended goals.
    The SBA has made some questionable IT investments into its 
contracting and business development programs, making various 
attempts to streamline application processes and enhance staff 
oversight and management of these programs. Unfortunately, we 
have seen some of these investments fail in the past. And I 
understand the SBA is now investing in a new technological 
initiative called certify.sba.gov, to which over $27 million 
has already been spent, but the system has not yet fully 
realized its intended purpose.
    Indeed, according to the Committee on Oversight and 
Reform's December 2019 Federal Information Technology 
Acquisition Reform, or FITARA, report, the SBA received a C 
grade for its IT portfolio management, indicating that the 
Office of Management and Budget found the SBA demonstrated poor 
management of commodity IT spending in alignment with agency 
mission and business functions. Also deeply troubling is the D 
grade that the SBA received in the FITARA report for 
cybersecurity, indicating severe deficiencies in cybersecurity 
measures taken by the SBA.
    I understand that we live in unprecedented times and the 
wheels of government often move slower than the pace of 
technology. However, we have to strive to do better and be 
better. Small businesses across the country depend on the SBA 
to get it right, and we must do all we can to ensure the 
agency's success.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman CHU. Thank you, Ranking Member Spano.
    I need to explain how this hearing will proceed. Each 
witness will have 5 minutes to provide a statement and each 
committee member will have 5 minutes for questions. Please 
ensure that your microphone is on when you begin speaking and 
that you return to mute when finished.
    With that, I would like to introduce Mr. Guy Cavallo, the 
Deputy Chief Information Officer at SBA. In this capacity, Mr. 
Cavallo provides leadership and direction in the creation, 
development, and execution of the agency's information 
technology management programs. He was previously the executive 
director of IT operations at Transportation Security 
Administration. He has also had an impressive career in the 
private sector implementing innovative technologies in 
governmental organizations.
    We welcome you to the committee, and you are now recognized 
for 5 minutes.

STATEMENT OF MR. GUY CAVALLO, DEPUTY CHIEF INFORMATION OFFICER, 
       U.S. SMALL BUSINESS ADMINISTRATION, WASHINGTON, DC

    Mr. CAVALLO. Chairwoman Chu, Ranking Member Spano, and 
members of the Subcommittee, Thank you for the opportunity to 
discuss how the Small Business Administration has modernized 
and transformed----
    Mr. SPANO. Excuse me, sir. Could you make sure your 
microphone is on?
    Mr. CAVALLO. The button is on. How is that?
    Mr. SPANO. That is perfect.
    Mr. CAVALLO. There we go. Thank you.
    Again, thank you for the opportunity to talk about how SBA 
has modernized and transformed its IT and cybersecurity 
capabilities, which we know are critical to enhancing our 
service delivery to citizens and small businesses.
    In July of 2017, SBA Chief Information Officer Maria Roat 
testified before the House Small Business Committee describing 
her vision for a 21st century SBA. Today, SBA has turned much 
of her vision into reality.
    With the strong executive leadership and support of 
Administrators Carranza and McMahon, SBA is now viewed as a 
technology leader in the Federal Government.
    Over the past 3-1/2 years, we have implemented the 
necessary building blocks to deliver and accelerate our IT 
modernization. That foundation includes a reliable network 
infrastructure and leveraging the power of the cloud. In early 
2017, I served as the executive sponsor of SBA's cloud journey. 
Within 82 days, we built SBA's first cloud, an accomplishment 
that may take others a year-plus to achieve. With that network 
and cloud platform in place, SBA could now leverage those 
foundations to meet our critical role in the upcoming CARES 
Act.
    Having SBA's cloud operational and leveraging commercial 
cloud services to support our modernization efforts were 
critical in our overnight move to nearly 100 percent telework 
status for the SBA staff and for the thousands of surge workers 
who may never work in an actual SBA office.
    I also want to highlight that one of the most significant 
benefits of moving to the cloud has been the tremendous 
improvement in our cybersecurity protections. For example, 
since April of 2018, our security team has partnered with DHS 
to take down 1,380 malicious websites that we uncovered by 
stopping phishing attempts into SBA.
    Now, based upon our enhanced cybersecurity capabilities, we 
conducted two pilots with DHS to validate the cloud 
protections. Our pilots on the Trusted Internet Connection and 
the continual diagnostic and mitigation programs allowed us to 
successfully demonstrate alternative ways of meeting the goals 
of those programs, and our results led DHS to modify the 
Federal security policies for those programs.
    In addition to those cybersecurity capabilities, we 
leveraged the cloud to build new CARES Act solutions, including 
a new portal for the $10,000 EIDL advances, a front end to the 
lender gateway for banks to access the E-Tran system, an 
updated find a lender tool to display eligible lenders of the 
PPP program by ZIP Code, and a new customer service hub for 
better tracking all the millions of citizen requests we 
receive.
    All of these new solutions were implemented within 8 days 
or less. My team worked round the clock to make sure that we 
had these in place as fast as possible.
    We also accelerated implementing GSA's login.gov common 
identity management solution, which allows a small business to 
use one set of credentials when accessing any SBA system or any 
other government portals that adopted login.gov. However, I do 
want to acknowledge that until these new systems were in place, 
several of the legacy systems did experience outages and slow 
response times from the overwhelming demand.
    For example, the disaster loan access portal began 
suffering outages due to the demand exceeding its capacity. 
Within a day, we implemented a replacement interim cloud 
solution to intake loan applications until the final 
replacement EIDL rapid intake portal was ready. However, while 
making multiple system changes in the middle of the night in 
such a short time, a mistake was made in one of the system's 
configuration which accidentally exposed PII data for some 
individuals. Within 3 hours, we discovered that exposure and 
quickly fixed the problem. And to support the potential 
exposure of those individuals that may have been exposed, we 
have offered free credit monitoring services.
    There is still much to do, but the positive steps taken 
over the last 3-1/2 years have positioned SBA to be able to 
continue modernizing our legacy systems.
    And I want to thank you for the opportunity to speak to 
that today, and I look forward to the Committee's questions.
    Chairwoman CHU. Thank you, Mr. Cavallo.
    I will begin by recognizing myself for 5 minutes for 
questions.
    Mr. Cavallo, it wasn't just a few persons who had their 
data exposed; it was 8,000 individuals. There were so many 
egregious things that happened in that situation where EIDL 
data was exposed, the data of small business owners who were 
trying to get relief from COVID-19, and it caused SBA to tell 
the applicants to reapply, they lost their place in line, and 
the applications were subsequently closed to anyone who wasn't 
in the agricultural industry.
    So, Mr. Cavallo, how did this breach happen, and what 
specific steps did SBA take to fix the issue that caused the 
data breach? Also, the breach occurred on March 25. Why did it 
take until April 13 for SBA to notify these small businesses 
who may have been affected?
    Mr. CAVALLO. I want to thank you for asking that question. 
First of all, I want to clarify that we did not suffer a data 
breach; we suffered a data exposure. The big difference is that 
there was no data break-in, any download of data. They are both 
serious, but a potential data exposure is quite different, and 
as I said, we were not breached.
    I can tell you how it happened. My staff was working around 
the clock, pulling all-nighters, trying to get the new loan 
portal set up as fast as possible. A human error was made at 6 
a.m., which caused the potential for that exposure to occur, 
and within 3 hours, we implemented taking the portal down and 
limiting the exposure.
    But we followed our standard procedures for dealing with a 
PII exposure, which means we reported it immediately to US-Cert 
within an hour. We convened our executive response team on 
March 29. That team decided to make sure that everybody that 
was potentially a user during those 3 hours would receive 
credit monitoring services.
    And then, ma'am, we don't have in place a contract to pay 
for credit monitoring services, so we had to go to GSA to 
compete the credit monitoring services, which we did on March 
29 and 30. Once that was awarded, we brought the vendor on 
board. They reviewed the logs and found that there were some 
logs that we didn't have valid addresses and information, and 
then they were able to issue the letter on April 13 to those 
individuals offering credit monitoring and free call center to 
use toll free and provide support.
    I would have liked that to be faster, but that was how long 
it took to get there.
    Chairwoman CHU. Well, what it shows is that there clearly 
needs to be improvement in SBA's IT. And I noted that there 
have been GAO reports since 2011 expressing concern about this. 
And then GAO did another report in 2014, which said that SBA 
was not prepared for large volumes of applications that could 
come in after a disaster.
    Now, I acknowledge that SBA has made some improvements to 
its technology system in the IT scorecard, but in the most 
recent scorecard, the SBA received a D on cybersecurity, which 
was its lowest mark in any category. So what has been the 
holdup to improvements in this area, and what specific steps 
has SBA taken to improve particularly on cybersecurity?
    Mr. CAVALLO. Yes. One thing I do want to point out that 
we--the way the cybersecurity score is calculated, there are 
two different criteria. One is an assessment from our Inspector 
General, and our Inspector General uses the OMB maturity model 
that measures eight different domains. To receive a higher 
score in that, you must have no KPMG findings in the domain. It 
is one of the toughest scores to be able to obtain. My 
understanding is only one Federal agency has been able to 
achieve the top score.
    The other component of that is how you are performing on 
your cross-agency CAP Goals. In the last 2 years, we have moved 
from a 30 percent CAP goal implementation to 80 percent 
implemented.
    So, ma'am, we are taking it very seriously, and we are 
working hard to get that score up. We think the combination of 
those scores do not accurately reflect where we are today; 
otherwise, DHS would not have selected us to pilot two critical 
cybersecurity pilots with them that have changed Federal 
policy. And, in fact, they have asked us now to help them 
implement the CDM Program in a new cloud-based solution.
    So, we realize how the scores were obtained. We have taken 
many steps to improve our cybersecurity. I highlighted the 
number of websites we are taking down. We have full visibility 
of all attempts to get into SBA. We also--with the PPP and EIDL 
loans, implemented geofencing so that a foreign adversary 
applying from a foreign country could not even get to the loan 
system.
    So, we are radically different from where we were in 2012 
or 2014. Still work to be done, but we would like to see that 
score increase. I mean, over the last 3 years, we have gone 
from a D-minus to a B-plus, and right now, we have the third 
highest FITARA score in government.
    Chairwoman CHU. Thank you. My time has now expired.
    The Ranking Member, Mr. Spano from Florida, is now 
recognized for 5 minutes.
    Mr. SPANO. Thank you, Madam Chairwoman.
    Mr. Cavallo, I assume that the SBA must have anticipated 
that a wave of applications were going to be incoming through 
the E-Tran system once the PPP and EIDL launched. However, we 
all know there were concerns about that early on, portal 
crashing, other technical difficulties that occurred right 
there at the start.
    Were any actions taken or undertaken or any efforts made to 
prepare for what, it would seem to me, would have been an 
anticipated load on the E-Tran system?
    Mr. CAVALLO. Yes. Thank you. Thank you for that question. 
Yeah, the E-Tran system is not managed by the Office of the 
Chief Information Officer. We partner with our business offices 
to do that. It is definitely on our list of systems that need 
to be modernized, and we are following the CIO Council's 
Application Rationalization Playbook to determine how to 
modernize. That is going to be a long-term project, sir, and 
that is something that we could not do between March 1 and when 
this all hit.
    The steps that my office specifically took was that we 
doubled the network connectivity speed because we knew there 
was this influx of people coming. That took a week or two to 
happen, but we were able to get ahead of the surge exceeding 
the demand. We also built that front-end lender gateway as a 
cloud-based application to basically take the load off on some 
of the front of E-Tran to allow our small banks to apply 
easier. And then we worked with our partner at the Office of 
Capital Access to spread out their workday. So instead of 
getting hit with all the applications coming in at 9 a.m. from 
certain banks, they spread out the schedule to be able to take 
applications throughout the day.
    Those are all things that we could do now to lessen the 
demand on E-Tran. The last thing we did is we approved a 
significant hardware investment to up the horsepower of the E-
Tran system, but it is going to take time to modernize that 
system. It is a very complex financial system.
    So those were the things we could take to support it. 
Definitely there were issues and there was trouble along the 
way, but each of these steps helped lessen the impact or reduce 
them from happening in the future.
    Mr. SPANO. Does the continued challenges apparently that 
you still have with the E-Tran system, are those impacting the 
pace, the slow pace at which the EIDL loans are being 
processed?
    Mr. CAVALLO. I don't think I can answer that. It is more of 
a program office answer on how they are handling the 
processing. As I said, the system is up and running, that is--
--
    Mr. SPANO. I guess my question is, you mentioned that 
problems with PPP and the EIDL were a function of or based on 
the fact that the E-Tran was not built to sustain that level of 
demand. What I am asking you is, is the EIDL demand still such 
that E-Tran cannot handle the load?
    Mr. CAVALLO. From everything I have seen, we seem to be 
handling the load now.
    Mr. SPANO. Okay. So that is not--E-Tran is not the reason 
for apparently the slowdown, the slow process of EIDL, as far 
as you are concerned?
    Mr. CAVALLO. Yes. From the technology side, I am seeing 
that it is up and that the connectivity is there.
    Mr. SPANO. Gotcha.
    So the SBA received an additional $2.1 billion for SBA 
salaries and expenses intended to help the agency staff up in 
order to meet the need generated by the pandemic. Can you tell 
us how this money has been spent so far?
    Mr. CAVALLO. I can address how we have spent it in the OCIO 
office.
    Mr. SPANO. With respect to your area.
    Mr. CAVALLO. Yes. With us increasing the size of SBA by 
about 500 percent, I knew immediately that our IT help desk, 
our network operations center, monitoring and making sure that 
our networks are working fine, and our security operations 
center providing cybersecurity, those were all designed for 
3,000 to 4,000 users, not well over 12,000. So, we have used 
the funds to help supplement that, and my staff working in 
those areas, to make sure that the connectivity is there, that 
the cybersecurity protections are there, that we are not being 
overwhelmed by it. It has been a slow process to ramp that up. 
We are using both temporary Federal employees and contractors 
to do that.
    So, in our office, yes, we are all well on the way of 
staffing up to deal with this increase of size.
    Mr. SPANO. Okay. I only have 20 seconds left. But you talk 
about in your testimony that--you discuss in your testimony 
using webcasts to connect with small businesses that save 
thousands of dollars over the SBA's previous teleconferencing 
solution.
    My question is, are there any other uses of existing 
technology in your arsenal that can be deployed to find other 
cost-savings benefits?
    Mr. CAVALLO. One of the things we did is we stood up a 
virtual command center, which saved us the cost of setting up a 
command center for our senior leadership to get together. 
Definitely the web conferencing, we can host 10,000 businesses 
at once now at no extra cost, when before, that would have cost 
us thousands of dollars. Leveraging the cloud is keeping us 
from buying more hardware. So that has also been a significant 
impact.
    Mr. SPANO. Thank you.
    I yield back, Chair.
    Chairwoman CHU. Thank you. The gentleman's time has 
expired. The gentleman yields back.
    And now, the gentleman from Pennsylvania, Mr. Evans, is now 
recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chairperson and Ranking Member.
    The IRS announced yesterday that they are establishing a 
new office to spearhead the efforts to modernize the management 
of taxpayer cases. The new office will be responsible for 
updating its outdated IT systems and making several of its 
processing paper documents digital.
    Would the SBA consider a similar strategy to bring the IT 
system, infrastructure, and management documents into the 21st 
century? And would the office of the CIO be well suited to 
implement the strategy?
    Mr. CAVALLO. Thank you for that question. As an agency, we 
have adopted the Federal CIO Council's Application 
Rationalization Playbook. To put that in non-CIO terms, you 
basically have a methodology to look at each information system 
and decide are you going to modernize it where it is, are you 
going to move it to the cloud, do you need to rewrite it, or do 
you need to shut the system down. So, we are going through our 
major applications looking at that first before we start 
spending money just heading down a modernization path without 
having a clear direction.
    What IRS has done is what I see a lot of the other Federal 
agencies doing, and we have been doing that from day one. Over 
the last 3-1/2 years, we have modernized major parts of SBA. 
The financial systems are by far the biggest and most complex 
ones, so we are taking that on next. But we will work closely 
with the CFO and Capital Access and ODA on heading down that 
modernization path.
    I think until we do that analysis, we won't be able to 
provide our CFO, our Administrator what the cost would be to do 
this so that they can come, present that to you, but we are 
doing that homework now.
    Mr. EVANS. How could Congress support the SBA in 
establishing a new office to spearhead IT becoming modern and 
digital across the entire agency?
    Mr. CAVALLO. Again, we appreciate all offers of help. 
Today, we have a Chief Technology Office that leads our 
modernization efforts. I am not sure that we would ask for 
anything additional to that. As I said, we have the methodology 
in place that we intend to use to make the decisions about 
modernizing systems, and then through our budget process and 
through the Administrator, we will come back to Congress and 
make those requests for funds when we are ready.
    Mr. EVANS. In mid-April, the SBA announced that on March 
25, it discovered that the application system for the EIDL may 
have disregarded personal information to other applicants of 
the program. What personal information was divulged?
    Mr. CAVALLO. Let me check for that, sir. I don't want to 
give you a wrong answer.
    Looks like I don't have that information with me. There was 
a formal report that we filed with US-Cert, so I can supply 
that information with you as a follow-up.
    Mr. EVANS. Okay. No problem.
    Since I am talking about it, for EIDL application status, 
the only updates provided are processing and then accepted or 
rejected. This has caused severe stress for small business 
owners in my district who have great difficulty checking the 
status of the application. Is the SBA working on improving the 
status checking on these loan applications? And let me give you 
a followup real quick. What is the timeline for improving loan 
application status checking?
    Mr. CAVALLO. The Office of the Chief Information Officer 
does the enterprise networking and connectivity and 
infrastructure. What you are asking about is a program office 
decision that is run by the Office of Disaster Assistance.
    Mr. EVANS. Right.
    Mr. CAVALLO. So, I can't answer that for them.
    Mr. EVANS. Okay. Real quick, I think I----
    I yield back to the Chair my remaining time.
    Chairwoman CHU. Thank you. The gentleman yields back.
    And now, the gentleman from Tennessee, Mr. Burchett, is now 
recognized for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady, Ranking Member.
    Eighty-six percent of the PPP loans in Tennessee in the 
Second District where I represent are under $150,000. Do you 
know how many of those are nationwide and the amount, total 
amount that would be?
    Mr. CAVALLO. No, sir. That is not something that I would 
have in the Chief Information Office.
    Mr. BURCHETT. How would I go about getting that?
    Mr. CAVALLO. We can provide that from our business offices 
that would have that up to date daily.
    Mr. BURCHETT. Great. If you all could send that to me, that 
would be great.
    And I have been hearing some complaints the E-Tran system 
is too complicated, especially for those who are new to SBA 
lending. What can the SBA do to make its public-facing 
technology systems more user friendly?
    Mr. CAVALLO. Again, a very good question. It is something 
that my team is dedicated to do. A lot of the new programs that 
I highlighted that we implemented, especially for the CARES 
Act, are much easier to use than the legacy systems. And 
whenever we can, for something like E-Tran that we can't 
modernize overnight, what we are trying to do is put a new 
front end in front of it so that the small business owner or 
the citizen is able to more easily interact with the system. We 
were able to do that successfully for a number of these 
programs.
    Mr. BURCHETT. Right.
    Mr. CAVALLO. Overall, it is a major initiative to improve 
the customer experience for any SBA user. I mentioned earlier 
that we have moved to login.gov, which is a common way that GSA 
provides the Federal agencies, where before, if you logged in 
to separate SBA systems, you might have to fill out your 
company's information over and over again. Again, we are taking 
steps to eliminate that and use more of these common platforms, 
so you have one identity.
    Mr. BURCHETT. Okay. Do you feel that the SBA has the 
capacity to manage all these new lenders moving forward?
    Mr. CAVALLO. Again, from the CIO's office, we have been 
able to absorb the 500 percent increase in staff and support 
the systems. The program offices that actually work with those 
lenders, they would be better able to answer that question, 
sir.
    Mr. BURCHETT. Okay. All righty. Thank you very much.
    Chairwoman CHU. Okay. At this point, the gentleman yields 
back.
    And at this point, all the members present have asked a 
question. So we actually have time for a second round of 
questions, so please be present if you would like to go a 
second round. I will start by recognizing myself for 5 minutes.
    Mr. Cavallo, when we arranged this committee hearing, we 
discovered that your Office of the Chief Information Office 
only oversees 37 percent of SBA's IT program. And this raises 
several new concerns, including why SBA would take such a 
disjointed approach to IT and cybersecurity, and why it did not 
entrust its chief information officer with managing IT for the 
PPP and EIDL, and to what extent the deputy CIO was brought in 
to help when PPP and EIDL both encountered significant 
technology system failures.
    So why is the SBA's IT staff decentralized? Who controls 
the remaining 63 percent, and how has it helped or hindered 
SBA's ability to respond to the coronavirus pandemic?
    Mr. CAVALLO. Thank you for that question, ma'am. You know, 
SBA has long had a history of being decentralized, and one 
thing in a decentralized world is that you get some of the IT 
staff closer to the program operations than staying in a 
central location. What we have done is partner with those 
offices. Most of those staff members are in the Office of 
Disaster Assistance and the other program offices. We partnered 
with them throughout this process.
    Going back to your question, how involved were we in all of 
this, we were very involved. None of the program offices went 
off and worked on their own on this. We put teams together and, 
like I said, sometimes pulling all-nighters to get these new 
programs in place so that lenders could apply.
    There are different models for IT. Like I said, right now 
at SBA, we are more decentralized, so what we have done over 
the years is make sure that we have a strong partnership with 
those offices. The CIO Office does have FITARA approval of 
every IT procurement of $50,000 or more. So, if an office tried 
to do something without having us involved, there is a hard 
stop that they can't proceed without the CIO.
    So, we have worked very well together. We spend time at 
each other's conferences and work together as a team. So right 
now, the model is working for us.
    Chairwoman CHU. But would there be greater improvement if 
this operation was centralized?
    Mr. CAVALLO. That is a great political science debate over 
time. We can find as many people arguing that centralizing 
everything is better than decentralizing, and we can find just 
as many people arguing with that.
    I think, Madam Chairwoman, the important part is that we 
partner together. If we ran independently, I would absolutely 
give you a different story. But we work so well together that 
it doesn't matter who we report to, that we are all pulling 
together in the same path of making sure that we have these 
systems up and operational as much as possible. So, I really 
can't give you a better answer than that.
    Chairwoman CHU. Well, were you aware of the deficiencies 
with the portals used to implement the Paycheck Protection 
Program prior to its launch, and did the Office of Capital 
Access request assistance?
    Mr. CAVALLO. As far as deficiencies, I am not sure which 
part you are talking about. As far as just the recommendation 
that they be expanded, yes, we were working with them on those 
expansions before that point. Just in the last year, we have 
added our cybersecurity coverage across their systems, which 
previously were done independently. So, yeah, we have worked 
well together, and they have asked for our help and we have 
jumped in and helped them throughout this process. For example, 
putting a front end to E-Tran was something we did together. We 
did not force that on them. They recognized that we had the 
expertise in our office to do the new cloud-based systems. They 
had the expertise in E-Tran. And we used both teams together to 
get that new front end put in as quickly as possible.
    Chairwoman CHU. And I know you have--the CIO has an annual 
budget of $28 million. What percentage of this is towards 
improving cybersecurity?
    Mr. CAVALLO. Off the top of my head, I would say that--
again, our move to the cloud was our biggest eye opener on 
cloud cybersecurity capabilities, so we got a benefit from that 
right away. We are probably spending $13 million of that on 
cyber, and everything that we are doing is based on cyber.
    One thing that my development teams do is we have security 
built into it so that it is not an afterthought. So, I can't 
give you a number for all of that because they are part of the 
team, but we take our cyber very seriously. And, in fact, as I 
mentioned earlier, DHS relies on us as being one of their prime 
agencies that they go to on how best to do cyber.
    Chairwoman CHU. Okay. My time has expired.
    Now, I would like to recognize the Ranking Member from 
Florida, Mr. Spano, for 5 minutes.
    Mr. SPANO. Thank you, Madam Chairwoman.
    Mr. Cavallo, you referenced a couple of times now putting a 
front end onto the system. Can you explain to those of us who 
are computer illiterates what that means?
    Mr. CAVALLO. Yes. It is great to have IT talk. You can 
have, even back to the old green screen days, a very difficult 
and complex screen to fill out that the data goes into in an 
old legacy system, or we can put a new web page that has 
dropdowns and colors and you can see exactly where you are, and 
the data still goes into the legacy system. So that is----
    Mr. SPANO. It is the way that the user interfaces with the 
system, more user-friendly essentially.
    Mr. CAVALLO. Yeah. We have simplified the user interface, 
made it easier for them to access the system than the old----
    Mr. SPANO. But you can't conduct substantive kind of 
fundamental changes to the system with these front-end patches, 
I guess?
    Mr. CAVALLO. No. That is where you need to do the full 
modernization and look at the right path.
    Mr. SPANO. Got it. Okay.
    It is our understanding that the SBA has spent 
approximately $27 million on its new certify.sba.gov system. Do 
you have an updated figure on that?
    Mr. CAVALLO. Yes, I do. If I brought it with me.
    I will say we are in the process of re-platforming Certify. 
Last year, the CIO and the CFO stopped the current development, 
which was the number that you are referencing. It was custom 
coded, so it meant that everything had to be written from 
scratch, and the decision was made that that was not a path to 
continue down. And what we have done since November, we have 
spent $3.5 million to rewrite the WOSB Program and HUBZone 
Program as the first two out on software as a service, which 
simply means instead of writing every line of code to be a 
database or to be that screen, we leverage the power of 
preexisting software.
    So, we just launched the new WOSB version last week, using 
that software as a service. It is a platform that we are using 
across SBA to do our citizen reporting. The ODA team is using 
it for their disaster portal.
    So instead of being a standalone, custom-built application, 
we are moving Certify to a common platform that will give us a 
360-degree view of all of our interactions with customers. So, 
we are in the middle of that rewrite.
    Mr. SPANO. Okay. Prior to the Certify system, there was 
another system that kind of went south, from what I have heard.
    Mr. CAVALLO. Yeah.
    Mr. SPANO. And now, it seems like this one, we were using 
it for a while, and now we are doing main wholesale changes to 
it, it seems, based on your explanation there. Is that usual to 
have changes and move to different programs and for them not to 
be effective and just to move from one to the next? Help me 
understand because, you know, I am not a techie, but it just 
seems like that is very inefficient.
    Mr. CAVALLO. That is a great question. It is all a factor 
of time. Today, my opinion is if you can have a vendor supply 
the platform so that they are responsible for doing updates, 
they are doing the code things, like with Office 365, Microsoft 
is updating Word and Outlook and all of those programs, and 
then you just write your code on top of that, then you have the 
power of a major vendor providing your cybersecurity, making 
sure everything is patched, that any potential breaches or 
attacks from foreign adversaries are covered. Moving away from 
custom code to that is absolutely something I would do a 
hundred times out of a hundred times.
    Mr. SPANO. But that is not what we are operating under 
currently. We are doing it in-house?
    Mr. CAVALLO. Yeah. The new Certify program that we just 
launched last week----
    Mr. SPANO. Okay. It is moving?
    Mr. CAVALLO. That is on this new platform.
    Mr. SPANO. I see.
    Mr. CAVALLO. Like I said, we have WOSB as the first one out 
of the gate, HUBZone will be next. But, yeah, the rest of the 
program has a long legacy.
    Mr. SPANO. Okay. So let me get your assurances, as much as 
you can give it to me sitting here, based on the fact that we 
have kind of failed here a couple of times now at this. Do you 
feel confident that this new way forward is actually going to 
work like we intend it to work? It is going to be an 
appropriate, responsible investment for the American taxpayer?
    Mr. CAVALLO. Like I said, from a technology standpoint, 
getting out of custom code, whether you put it in the cloud or 
whether you kept it on premise, absolutely is the right 
direction to go today. You know, the legacy systems that are 
all custom code are what is keeping agencies up at night. So, I 
think we have made the right choice and we are headed in the 
right direction.
    The Office of Disaster Assistance has 2,500 users already 
in the new system, so I think what we are seeing differently, 
instead of being its own standalone system run by just the GCBD 
office, we are seeing more buy-in to a platform across the SBA 
offices, which helps us break out of silos of dataware. If you 
asked our offices can you give me data for my district, we 
actually have to go to different systems to give you that data. 
Where we are headed to is that will all be very simple common, 
so that one office knows what your citizen did versus another 
visiting another office.
    Mr. SPANO. I see. Thank you.
    Madam Chair, I yield back.
    Chairwoman CHU. Okay. The gentleman's time has expired.
    And now, the gentleman from Pennsylvania, Mr. Evans, is 
recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair.
    My understanding, this is the first year that the SBA has 
had the ability to transfer funds to its working capital to 
upgrade IT equipment?
    Mr. CAVALLO. Yes.
    Mr. EVANS. Okay. What are the priorities moving forward 
then?
    Mr. CAVALLO. Yes, thank you for asking that. Yes, last 
year, was the first year that SBA was able to implement a 
working capital fund. So, we have had less than a year of 
having that fund available. And at the end of last fiscal year, 
we were able to seed that with $6 million.
    We have set up a governance model at SBA where the CIO and 
the CFO manage that working capital fund. The offices may 
propose----
    Mr. EVANS. While you are at it then, can you tell me, in 
addition, what has SBA done with the $6 million then?
    Mr. CAVALLO. Yes. We have made priorities to--most of it is 
going towards modernizing systems. Part of it went to modify 
the Certify system. We have also put part of it into updating 
and modernizing the EDMIS system. So, there are about four or 
five different areas.
    Sir, we did not use it to buy any hardware. Everything that 
was put into that fund we have dedicated to modernizing new 
systems.
    I don't know how the end of the fiscal year will end up, if 
we get to supplement that with another influx of money, but 
right now, that is 2-year money. So. the programs that we 
started this year, if they need to go past the fiscal year, we 
were counting spending some of that $6 million to keep them 
going until they are finished, like the EDMIS program. But, as 
I said, this was the first year of the agency having that fund.
    Mr. EVANS. My understanding when the paycheck protection 
portal was launched, the E-Transfer system where lenders 
submitted borrower applications went offline for as long as 4 
hours. On April 27, upon reopening, the PP portal crashed 
again. I heard from many lenders, you can imagine, in my home 
city of Philadelphia about the frustration in using this 
system, which caused them much stress.
    How did the office of the CIO work with the Office of 
Capital Access to recidivise the issues and relaunch the 
system?
    Mr. CAVALLO. Sure, yeah. What I mentioned earlier is that 
one thing that we saw was that the amount of users hitting the 
traffic from outside was growing tremendously, so we increased 
the bandwidth connectivity to it so that that would not be a 
limiting factor. And we put in a new front end to make it 
easier to access the system, like the Lender Gateway. There 
were hiccups along the way because you have a very legacy 
system and you have a brand-new system. I believe we figured it 
out through this time, and it should be much easier and better 
now. But there definitely were hiccups in the early days with 
the tremendous volume that we were facing.
    Mr. EVANS. So how successful do you think you have been, if 
you had to kind of rate it in terms as a result of you 
revisiting it?
    Mr. CAVALLO. I think for an agency the size of SBA to 
respond to all that we have responded to, that I can't commend 
higher my staff and the other program offices' staffs for 
stepping in. We know that--we have talked about it throughout 
this meeting--in the early days, the first week or two or 
three, there were significant problems, but everybody jumped 
into it. So I would give us a pretty high rating today.
    Mr. EVANS. Okay. I thank you.
    Thank you, Madam Chair. And I yield back the balance of my 
time.
    Chairwoman CHU. Well, thank you.
    [Inaudible] now all of the members have asked their 
questions, so I would now like to close.
    And I thank you, Mr. Cavallo, for your testimony today on 
SBA's technology systems, IT modernization efforts, and help 
addressing its cybersecurity issues.
    While I understand that the demands on these technology 
systems is unprecedented, several of these issues were 
preventable. SBA needs to have an IT infrastructure in place 
moving forward that can scale and respond to the high volume of 
applicants in need of support during COVID-19.
    Several of the technical issues that arose affected the 
ability of small businesses to access loans, and the 
complicated and difficult process of applying placed another 
unnecessary burden on small businesses that were already 
struggling to stay open.
    The Committee looks forward to working with you in the 
coming months to address these technical issues and make sure 
they are working effectively so SBA can implement its programs 
effectively and meet the needs of millions of small businesses 
that are relying on you to help them stay afloat.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    And if there is no further business before the committee, 
we are adjourned.
    [Whereupon, at 1:58 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
